No. 20-____
IN THE

Supreme Court of the United States
_________

ORLANDO CORDIA HALL
Petitioner,
v.
T.J. Watson, Warden, USP Terre Haute,
Respondent.
_________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit
Execution Date: November 19, 2020 at 6:00 PM
_________
PETITION FOR A WRIT OF CERTIORARI
_________
KATHRYN M. ALI
KAITLYN A. GOLDEN
HOGAN LOVELLS US LLP
555 Thirteenth Street,
N.W.
Washington, D.C. 20004
MARCIA A. WIDDER
104 MARIETTA STREET NW,
SUITE 260
ATLANTA, GA 30303
(404) 222-9202

PIETER VAN TOL
Counsel of Record
HOGAN LOVELLS US LLP
390 Madison Avenue
New York, NY 10017
(212) 918-3000
Pieter.vantol@hoganlovells.com
ROBERT C. OWEN
LAW OFFICE OF ROBERT C.
OWEN, LLC
53 WEST JACKSON BLVD., SUITE
1056
CHICAGO, IL 60604

Counsel for Orlando Cordia Hall

QUESTIONS PRESENTED
(CAPITAL CASE)
When Petitioner, a Black man, was sentenced
to death in a Texas federal courtroom after the prosecution struck four out of five Black prospective jurors
(while knowing the defense would strike the fifth for
her strong pro-death penalty views) and provided purportedly “race-neutral” reasons for each strike. Years
after Petitioner’s trial, and after relief had been denied on his § 2255 motion, this Court concluded in Miller-El v. Dretke, 545 U.S. 231 (2005), that one of Petitioner’s prosecutors, Paul Macaluso, had struck Black
jurors based on their race, and then lied about doing
so, in violation of Batson v. Kentucky, 476 U.S. 69
(1986). The Fifth Circuit Court of Appeals subsequently concluded that Macaluso had done the same
in another case, Reed v. Quarterman, 555 F.3d 364
(2009).
Because Miller-El and Reed were not decided
until Petitioner’s § 2255 habeas proceedings concluded, and because he does not meet the standard for
filing a successive § 2255 petition, which requires either new evidence of actual innocence or a new rule of
constitutional law made retroactive by this Court, Petitioner raised this Batson claim via the “savings
clause” of § 2255(e) through a petition for writ of habeas corpus brought under 28 U.S.C. §2241. The district court agreed that Petitioner's Batson allegations
stated an "extremely serious" claim of constitutional
error, but concluded that Petitioner was barred from
(i)

ii
raising the claim via a § 2241 petition. The Court of
Appeals for the Seventh Circuit affirmed.
The questions presented are:
1. Does 28 U.S.C. § 2255(e) permit use of 28
U.S.C. § 2241 as a vehicle to present new evidence
that a federal death sentence is tainted by racial discrimination when 28 U.S.C. § 2255 otherwise provides
no avenue to present such evidence for consideration?
2. Does executing a Black prisoner whose conviction and death sentence were procured through intentional race discrimination constitute a fundamental miscarriage of justice, which overrides any procedural limitation on raising a Batson claim for review
in federal court?

iii
PARTIES TO THE PROCEEDING
Orlando Cordia Hall, petitioner on review, was the
petitioner-appellant below.
T.J. Watson, Complex Warden, U.S. Penitentiary
Terre Haute, is respondent on review and was the respondent-appellee below.

iv
RELATED PROCEEDINGS
There are several related proceedings, as defined in
Supreme Court Rule 14.1(b)(iii).
This appeal originates from an Order from the District Court for the Southern District of Indiana. See
Order, Hall v. Watson, No. 2:20-cv-00599 (S.D. Ind.
Nov. 18, 2020), Dkt. #18. The District Court case resulted in one appeal to the Seventh Circuit, which was
decided on November 19, 2020. See Hall v. Watson
(7th Cir. Nov. 19, 2020).
Mr. Hall previously challenged the same criminal
conviction or sentence on direct appeal in United
States v. Orlando Cordia Hall, No. 96-10178 (5th
Cir.). The Fifth Circuit denied relief, 152 F.3d 381
(5th Cir. 1998), and this Court denied certiorari, see
526 U.S. 1117(1999).
Mr. Hall also previously challenged the same criminal conviction or sentence on proceedings pursuant to
28 U.S.C. § 2255. See Hall v. United States, Nos. 4:00–
CV–422–Y, 4:94-CR-121 (N.D. Tex. Aug. 24, 2004).
On July 5, 2006, the Fifth Circuit denied Mr. Hall a
certificate of appealability. United States v. Hall, 455
F.3d 508 (5th Cir. 2006). The Supreme Court denied
certiorari on April 16, 2007. Hall v. United States, 549
U.S. 1343 (2007).
Mr. Hall twice requested leave from the Fifth Circuit to file successive habeas petitions pursuant to 28
U.S.C. § 2255, and was twice denied. In re Orlando
Hall, No. 16-10670, Doc. 00513555153 (5th Cir. June
21, 2016); In re Orlando Hall, No. No. 19-10345, Doc.
00515621458 (5th Cir. Oct. 30, 2020).

v
Mr. Hall challenged the same criminal conviction on
proceedings pursuant to a petition for writ of habeas
corpus under 28 U.S.C. § 2241 by the United States
District Court for the Southern District of Indiana,
challenging his conviction under 18 U.S.C. § 924(c).
On November 18, 2020, the Seventh Circuit denied relief. See Order, Hall v. Watson, No. 20-03216 (7th Cir.,
Nov. 18, 2020) Dkt. #11.
A related action was filed in the District of Columbia District Court. Judgment in that action was entered November 16, 2020. See Order, Hall v. Barr et
al., No. 20-cv-03184 (D.D.C. Nov. 6, 2020), Dkt. #24;
see also Mem. Op., Hall v. Barr et al., No. 20-cv-03184
(D.D.C. Nov. 16, 2020), Dkt. #23.

IN THE

Supreme Court of the United States
_________
No. 20_________
ORLANDO CORDIA HALL.,
Petitioner,
v.
T.J. WATSON, WARDEN, USP TERRE HAUTE,
Respondent.
_________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit
Execution Date: November 19, 2020 at 6:00 PM
_________
PETITION FOR A WRIT OF CERTIORARI
_________
Orlando Cordia Hall is scheduled to be executed on
November 19, 2020, at 6:00 p.m. Eastern.
INTRODUCTION
Orlando Cordia Hall is a Black man who was convicted and sentenced to die by an all-White jury. One
of the two prosecutors who picked that all-White jury
has twice been adjudicated to have violated Batson—
once by this Court in Miller-El and subsequently by
the Fifth Circuit.
The case concerns whether Mr. Hall will ever be able
to raise his claims that his conviction and sentence
were obtained in violation of Batson v. Kentucky, and
(1)

2
that his federal death sentence is the result of racial
discrimination in the jury selection process. No court
has ever heard or considered the myriad ways that racial bias distorted Petitioner’s trial, conviction, and
death sentence because at the time of trial and Mr.
Hall’s § 2255 proceedings, evidence of the prosecutor’s
history of Batson violations was not known.
And if the decision of the court below is permitted to
stand, Petitioner will be executed without ever having
had an opportunity to litigate his claims, despite the
fact that race discrimination is so pernicious, so nefarious, and contrary to our values that tolerating its influence in any criminal case, let alone one that will
end in an execution, is manifestly unjust.
Despite the statutory language in 28 U.S.C. §§ 2241
and 2255 and the weight of precedent, the panel majority found that Petitioner had no procedural avenue
to bring his claims and erred in (1) summarily concluding that § 2241 does not provide an avenue for relief, without undertaking any substantive review of
circuit precedent or engaging in any statutory interpretation and (2) disregarding the weight of new evidence that racial discrimination unconstitutionally
tainted a federal death sentence, which this Court has
given exceptional importance.
The petition should be granted.
OPINIONS BELOW
The Seventh Circuit denied relief in a decision dated
November 19, 2020. Pet. App. 1a-3a. The District
Court’s order denying the preliminary injunction is
available at Appendix 001 attached hereto. Pet. App.
4a-25a.

3
JURISDICTION
The Seventh Circuit entered judgment on November 19, 2020. Pet. App. 2a-3a. This Court’s jurisdiction is invoked under 28 U.S.C. § 1254(1).
STATUTORY AND CONSTITUTIONAL
PROVISIONS INVOLVED
28 U.S.C. § 2241(a) provides:
Writs of habeas corpus may be granted by the
Supreme Court, any justice thereof, the district courts and any circuit judge within their
respective jurisdictions. The order of a circuit
judge shall be entered in the records of the district court of the district wherein the restraint
complained of is had.
28 U.S.C. § 2255(e) provides:
An application for a writ of habeas corpus in
behalf of a prisoner who is authorized to apply
for relief by motion pursuant to this section,
shall not be entertained if it appears that the
applicant has failed to apply for relief, by motion, to the court which sentenced him, or that
such court has denied him relief, unless it also
appears that the remedy by motion is inadequate or ineffective to test the legality of his
detention.
28 U.S.C. § 2255(h) provides:
A second or successive motion must be certified as provided in section 2244 by a panel of
the appropriate court of appeals to contain—
(1) newly discovered evidence that, if proven
and viewed in light of the evidence as a whole,

4
would be sufficient to establish by clear and
convincing evidence that no reasonable factfinder would have found the movant guilty of
the offense; or (2) a new rule of constitutional
law, made retroactive to cases on collateral review by the Supreme Court, that was previously unavailable.
The Fifth Amendment to the U.S. Constitution, U.S.
Const., amend. IV provides:
No person shall * * * be deprived of life, liberty, or property, without due process of law[.]
The Sixth Amendment to the U.S. Constitution, U.S.
Const., amend. VI provides:
In all criminal prosecutions, the accused shall
* * * have compulsory process for obtaining
witnesses in his favor, and to have the Assistance of Counsel for his defense.
The Eighth Amendment to the U.S. Constitution,
U.S. Const., amend. VIII provides:
Excessive bail shall not be required, nor excessive fines imposed, nor cruel and unusual punishments inflicted
The Fourteenth Amendment to the U.S. Constitution, U.S. Const., amend. XIV provides:
No State shall * * * deprive any person of life,
liberty, or property, without due process of
law; nor deny to any person within its jurisdiction the equal protection of the laws.

5
STATEMENT
A. Factual and Procedural History.
Mr. Hall was indicted in the fall of 1994 on six counts
of: (1) kidnapping in which a death occurred, (2) conspiracy to commit kidnapping, (3) traveling in interstate commerce with intent to promote the possession
of marijuana with intent to distribute, (4) using a telephone to promote the unlawful activity of extortion,
(5) traveling in interstate commerce with intent to
promote extortion, and (6) using a carrying a firearm
during a crime of violence. In February 1995, the government gave notice that it intended to seek the death
penalty against him. The government did not seek the
death penalty against three of Mr. Hall’s co-defendants.1
The government made the decision to prosecute in
the United States District Court for the Northern District of Texas, which was 80.81% White and 10.41%
percent Black, according to data from the 1990 Census. It could have tried Mr. Hall in the Pine Bluff Division of the Eastern District of Arkansas, which was
35.85% Black in 1990.
Voir dire lasted from October 2–19, 1995. Assistant
United States Attorney Paul Macaluso played a critical role in selecting that jury. After strikes for cause,
five qualified Black venire members remained. The
1

The fourth co-defendant, Bruce Webster, recently had his
death sentenced vacated and affirmed by the Seventh Circuit
on the basis that he is intellectually disabled. Webster v. Watson, 975 F.3d 667 (7th Cir. 2020). As a result, of the individuals convicted of these crimes, only Mr. Hall remains under a
death sentence.

6
government struck four of them. The fifth, who had
expressed strong pro-death penalty views in her juror
questionnaire and during questioning, was struck by
the defense. Mr. Hall’s defense counsel raised a Batson challenge at trial on the basis that “the government . . . used preemptory strikes on four black jurors . . . .” The district court noted its view that this
was likely “insufficient to present a prima facie case”
and, in response the government provided ostensibly
“neutral” reasons for its strikes. The government
stated that “the Court refused to grant [] challenges”
to the four Black jurors in question. However, the government had sought to strike only two of the four,
Frances Miller and Lawrence Barrett, for cause. A
colloquy followed, at the end of which the court denied
the Batson challenge without allowing the defense to
address the stated reasons for the government’s exercise of its peremptory strikes.
There were two Black jurors who were not challenged for cause. Potential Black juror Amy Evans
wrote in her juror questionnaire that she supported
the death penalty “depend[ing] on the nature of the
crime,” that it was appropriate for “brutal senseless
murders,” and that it served “as a means of deterrent
from committing the crime.” She testified that even if
the option of a life sentence without parole was available, she could vote for the death penalty. The government claimed that it struck Ms. Evans, because she
“was very, very hesitant on her views on the death
penalty.” However, the government seated White jurors who gave similar testimony. For example, White
prospective juror Mary Ann Herring provided both
“yes” and “no” answers on her questionnaire in

7
response to whether she could support a death sentence where life without parole was also an option.
She later testified during voir dire that the death penalty should “depend on the circumstances” and “on the
crime.” The government further cited “concern[]” that
Ms. Evans had two brothers-in-law in prison, but
asked her no questions about this topic, and seated
multiple White jurors with family members in or recently released from prison.
Potential Black juror Billie Lee stated in her juror
questionnaire that she favored the death penalty for
“extremely brutal” crimes and it should be available
for “child molesters who kill their victims.” During
voir dire, she testified that she believed the death penalty was warranted for “[a]nything that involves children, murder of children, [and] cruelty to children”
(Mr. Hall was tried for the killing of a minor). She also
testified that, though she may initially lean toward a
life sentence over the death sentence, she could impose a death sentence “depend[ing] on evidence, the
cruelty of the act, all of that would have to be considered.” The government nevertheless claimed that it
struck Ms. Lee because of her anti-death penalty
views. Again, however, the government accepted
White jurors who expressed similar views. For example, just like Ms. Lee, seated white juror Stacey Donaldson had selected on her jury form that despite deep
misgivings about capital punishment, “as long as the
law provides for it, I could assess it, under the proper
set of circumstances.” And seated juror Cindy
Boggess testified during voir dire that she had always
connected the death penalty to ”the murder of a child
or really coldblooded, calculated . . . sort of murder,”

8
and observed that “it would have to be one that was
literally no doubt whatsoever, otherwise . . . I could
not do it.” The government also claimed that it struck
Ms. Lee that she was “on a prior jury trial for robbery
and found the defendant not guilty.” This was untrue.
And, once again, the government accepted a White juror who served on a prior jury and acquitted a defendant on a charge of murder. Upon noticing this mistake, the government changed its story, claiming that
Ms. Lee was struck be-cause she “had a brother-in-law
who was a criminal defense attorney, which caused
me some concern.” But, again, the government asked
Ms. Lee no questions about this topic and seated a
White juror whose brother-in-law was a public defender.
Trial proceeded from October 24-31. The defense
presented no evidence and waived closing argument.
On October 31, 1995, the all-White jury convicted Mr.
Hall of all counts. The penalty phase commenced the
following morning. From November 1-3, the same allWhite jury heard testimony and argument regarding
Mr. Hall’s sentence. On November 6, 1995, the jury
recommended the death penalty.
The district court entered judgment on February 12,
1996, formally sentencing Mr. Hall to death. Mr. Hall
appealed and the Fifth Circuit affirmed.
B. Subsequent Developments Following Mr.
Hall’s Conviction.
Mr. Hall appealed his conviction and that appeal
was denied by the Fifth Circuit. United States v. Hall,
152 F.3d 381 (5th Cir. 1998), cert. denied, 526 U.S.
1117 (1999), denying reh’g on Oct. 1, 1998. In May
2000, Mr. Hall moved to vacate his conviction and

9
sentence pursuant to 28 U.S.C. § 2255. United States
v. Hall, No. 4:94-cr-00121-Y, Doc. 958 (N.D. Tex. May
16, 2020). The district court ultimately denied his
claims. Hall v. United States, No. 4:00-cv-00422-Y,
2004 WL 1908242, at *37 (N.D. Tex. Aug. 24, 2004).
Mr. Hall sought permission to appeal from both the
district court and the Fifth Circuit. Leave to appeal
was denied. United States v. Hall, 455 F.3d 508 (5th
Cir. 2006), cert. denied, 549 U.S. 1343 (2007).
After Mr. Hall’s 28 U.S.C. § 2255 proceedings concluded, this Court decided Miller-El v. Dretke, 545
U.S. 231 (2005), holding that the Texas prosecutors
involved, including Paul Macaluso—who prosecuted
Mr. Hall and helped select the all-White jury that convicted him and sentenced him to death—violated Batson by striking Black jurors. The Court specifically rejected the justifications that Macaluso and others had
proffered for their exercise of peremptory strikes in
that case, holding unequivocally that they were pretextual. Of particular importance, this Court credited
evidence that the Dallas County District Attorney’s
Office—where Macaluso trained and practiced for 15
years—“had adopted a formal policy to exclude minorities from jury service. . . . A manual entitled ‘Jury Selection in a Criminal Case’ [sometimes known as the
Sparling Manual] was distributed to prosecutors.” 545
U.S. at 264. The Court found that “the manual was
written in 1968” and “remained in circulation until
1976, if not later.” Id. (quoting Miller-El v. Cockrell,
537 U.S. 322, 334 (2003)).
The Sparling Manual was unequivocal in its discriminatory directives. Most importantly for the present case, it advocated to avoid minority jurors

10
because “[m]inority races almost always empathize
with the Defendant.” Miller-El v. Dretke, No. 03-9659,
2004 WL 2899955, *99-114 (2004) see also id. (“You
are not looking for any member of a minority group
which may subject him to oppression – they almost always empathize with the accused.”). The manual further advocated against Jewish jurors because they
“have a history of oppression and generally empathize
with the accused.” And about women jurors it stated,
“I don’t like women jurors because I can’t trust them .
. . Young women too often sympathize with the Defendant; old women wearing too much make-up are
usually unstable, and therefore are bad State’s jurors.” Id. Realizing that “[i]t is impossible to keep
women off your jury,” the manual instructed prosecutors to “try to keep the ratio at least seven to five in
favor of men.” Id.
The Court also noted that “[t]he prosecutors used
their peremptory strikes to exclude 91% of the eligible
African–American venire members,” a disparity “unlikely to [be] produce[d]” by “[h]appenstance.” Id. at
241. The Court also instructed that a “side-by-side
comparison[] of some black venire panelists who were
struck [with] white panelists allowed to serve” is
“[m]ore powerful than . . . bare statistics.” Id. Thus,
“[i]f a prosecutor’s proffered reason for striking a
Black panelist applies just as well to an otherwisesimilar nonblack who is permit-ted to serve, that is
evidence tending to prove purposeful discrimination
to be considered at Batson’s third step.” Id.
Four years later, the Fifth Circuit determined, in a
separate case, that Macaluso had once again struck
Black jurors on the basis of their race in violation of

11
Batson. See Reed, 555 F.3d at 382 (“One of the same
lawyers that conducted the voir dire in Miller–El’s
case, Paul Macaluso, also questioned prospective jurors for Reed’s trial”). Like this Court, the Fifth Circuit credited evidence concerning the Sparling manual, noting that given “the historical evidence of racial
bias among the[] prosecutors” (including Macaluso),
“we view this exact same evidence as persuasive
here.” Id.
Also after Mr. Hall’s conviction, appeal, and § 2255
proceedings, new data became available demonstrating that the federal death penalty has been disproportionately meted out based on race—and particularly
in Texas, where Mr. Hall was prosecuted. The data
shows that federal prosecutors in Texas were nearly
six times more likely to request authorization to seek
the death penalty against a Black defendant than a
non-Black defendant. Authorization was nearly eight
times more likely to be granted in cases with a Black
defendant than a non-Black defendant. And a death
verdict was nearly sixteen times more likely to be rendered in a case with a Black defendant than a nonBlack defendant. In the Northern District of Texas,
where Mr. Hall was sentenced, the racial disparity
was consistent with that seen across all four Texas
federal districts and even “slightly greater.”
On November 12, 2020, Mr. Hall filed a petition for
habeas corpus relief in the district where he is confined, the United States District Court for the Southern District of Indiana. He contemporaneously sought
a stay of his execution. Mr. Hall’s motion was denied
on November 17, 2020. Mr. Hall’s subsequent appeal
was dismissed on November 19, 2020.

12
The execution is scheduled to go forward today, November 19, 2020, at 6:00 pm.
REASONS TO GRANT THE PETITION
The case concerns whether a federal death row inmate can use 28 U.S.C. § 2241 to bring important constitutional claims of racial discrimination, never before addressed by any court, and whether the government can go forward with an execution while such
claims are outstanding. By interpreting § 2255 as a
bar to such claims, the Seventh Circuit has impermissibly narrowed the reach of habeas corpus. As the
Great Writ, in conjunction with the “savings clause”
of § 2255(e), is intended to capture important constitutional claims such as those brought here, it should
not be narrowed so as deny access to the courthouse,
especially where there lie such fundamental flaws of
equal protection under the law. The panel will allow
Mr. Hall to be executed, which would cause irreparable harm in foreclosing these important claims without consideration.
I.

THE DECISION BELOW IS MANIFESTLY
INCORRECT.
A.

The Panel Manifestly Erred In Concluding That Mr. Hall Could Not Pursue Habeas Relief Via 28 U.S.C. § 2241, Thereby
Foreclosing Any Avenue For Him to Litigate Race Discrimination Claims The District Court Characterized As “Extremely
Serious.”

As this Court has recognized, the “Great Writ” exists
“to provide an effective and speedy instrument by
which judicial inquiry may be had into the legality of

13
the detention of a person.” Carafas v. LaVallee, 391
U.S. 234, 238 (1968). The panel’s decision below guts
this historic safety valve, foreclosing access to any possibility of habeas relief for Mr. Hall despite the fact
that he has raised compelling evidence of race discrimination at his trial by a prosecutor adjudicated to
have committed Batson violations on at least two occasions, including by this Court, and despite the fact
that this evidence was not reasonably available when
Mr. Hall litigated his § 2255 petition. Unless this
Court intervenes to correct the Court of Appeals’ error
and hold that Mr. Hall may proceed pursuant to the
“Savings Clause” of 28 U.S.C. § 2255(e), he will be executed without any court ever hearing claims that the
district court characterized as “extremely serious.”
Pet. App. 25a.
1. The Courts Below Erred by Finding That §
2255 Was Not Structurally Inadequate or Ineffective.
Section 2255(e), often referred to as the “savings
clause” or “safety valve,” permits a prisoner to petition
the federal courts for a writ of habeas corpus under 28
U.S.C. § 2241, but only if “the remedy by motion [under § 2255] is inadequate or ineffective to test the legality of [the] detention.’” Roundtree v. Krueger, 910
F.3d 312, 313 (7th Cir. 2018) (quoting § 2255(e)).
That the relief sought under § 2241 is based on
grounds that “could not have [been] invoked . . . by
means of a second or successive § 2255 motion” and
seeks to remedy “an error [that] was indeed a miscarriage of justice” are key to the Seventh Circuit’s interpretation of the savings clause. Brown v. Rios, 696
F.3d 638, 640 (7th Cir. 2012) (citation omitted). While

14
“[t]he mere fact that [a] petition would be barred as a
successive petition under § 2255 . . . is not enough to
bring the petition under § 2255's savings clause,”
Garza v. Lappin, 253 F.3d 918, 921 (7th Cir. 2001), a
petitioner is able to access the savings clause by showing the presence of “something more.” Webster v. Daniels, 784 F.3d 1123, 1136 (7th Cir. 2015) (en banc).
The en banc Seventh Circuit in Webster read “section 2255(e) as encompassing challenges to both convictions and sentences that as a structural matter
cannot be entertained by use of the 2255 motion.” 784
F.3d at 1139. It further recognized that, in exceptional circumstances, constitutional claims can be
brought under § 2241. And it granted relief, finding
that a failure to do so would “condon[e] an execution
that violates the [constitution],” and that “there is no
reason to assume that our procedural system is powerless to act in such a case.” Id. at 1139–40. So too
here.
While it may be true that a case presenting the exact
facts of Webster would be “rare,” 784 F.3d at 1141, the
Seventh Circuit has not required strict adherence to a
“rigid categor[y],” Purkey v. United States, 964 F.3d
603, 614 (7th Cir. 2020). Mr. Hall’s case fits into this
narrow, rare category. The evidence that he seeks to
present is, like Mr. Webster’s, exceptionally compelling and grounded in the vindication of his most fundamental constitutional rights. Allowing Petitioner to
challenge his execution, based on a sentence handed
down by an all-White jury fabricated on the basis of
racial prejudice, is within the “core purpose of habeas
corpus.” Webster, 784 F.3d at 1139. The evidence that
he seeks to present is of the type by which “the very

15
integrity of the courts is jeopardized.” Miller-El v.
Dretke, 545 U.S. 231, 238 (2005); see also See also Br.
of Amicus Curiae NAACP Legal Def. & Educ. Fund,
Inc. In Support of Pet’r-Appellant at 4-5, Hall v. Watson, No. 2:20-cv-00599 (S.D. Ind. Nov. 18, 2020); see
also id. at 15 (urging the Court to hold that “the § 2241
safety valve is available when, as here, a petitioner
facing execution by the United States has presented
compelling evidence that his sentence of death is
tainted by racism”).
2. Precluding Mr. Hall From Litigating His
Claims Would Result In A Fundamental Miscarriage of Justice.
Allowing the panel’s decision to stand would “result
in a ‘fundamental miscarriage of justice.’” Coleman v.
Thompson, 501 U.S. 722, 749-50 (1991) (internal quotation omitted). Racial bias in a criminal trial is so
antithetical to constitutional values that this Court
has gone to great lengths to repeatedly condemn it.
See, e.g., Peña-Rodriguez v. Colorado, 137 S. Ct. 855,
868 (2017) (“The unmistakable principle underlying
these precedents is that discrimination on the basis of
race, ‘odious in all aspects, is especially pernicious in
the administration of justice.’”) (quoting Rose v.
Mitchell, 443 U.S. 545, 555 (1979)).
Indeed, “[s]ome toxins can be deadly in small doses.”
Buck v. Davis, 137 S. Ct. 759, 777 (2017). And here,
the toxins were more than small. The all-White jury
that convicted Mr. Hall and sentenced him to death
was selected by a prosecutor with the remarkable
track record of having twice been adjudicated, by two
different courts—including this one—to have violated
Batson, in decisions that repeatedly identified him by

16
name and expressly found that the justifications he
proffered for the strikes at issue were false and pretextual. See Miller-El, 545 U.S. at 248-50; Reed, 555
F.3d at 371, 376, 382.
Because the execution of a death sentence imposed
on the basis of racial discrimination works a fundamental “miscarriage of justice,” see Wainwright v.
Sykes, 433 U.S. 72, 91 (1977), a habeas petitioner may
prevail if he puts forth evidence tending to show that
his case satisfies the “miscarriage-of-justice exception.” See House v. Bell, 547 U.S. 518, 536 (2006)
(quoting Schlup v. Delo, 513 U.S. 298, 324 (1995)).
The racial animus that infected Mr. Hall’s capital trial
is a “fundamental miscarriage of justice” that can be
corrected on habeas review despite any claimed procedural bar. Coleman, 501 U.S. at 750. See also Br. of
Amicus Curiae NAACP Legal Def. & Educ. Fund, Inc.
in Supp. of Pet’r-Appellant at 2, Hall v. Watson, No.
2:20-cv-00599 (S.D. Ind. Nov. 18, 2020) (“It would be
a fundamental miscarriage of justice for the United
States to carry out an execution without providing
courts an opportunity to consider and resolve the merits of Mr. Hall’s substantial claims that his death sentence is unlawfully tainted by racial discrimination.”);
see also id. at 11-14 (discussing that it would be a fundamental miscarriage of justice for the United States
to carry out an execution based on a death sentence
influenced by [racial] discrimination”).

17
B. The Lower Courts Committed Manifest
Error in Failing to Consider the New
Evidence of Batson Violations Tainting
Petitioner’s Death Sentence.
The circuit court and district court below erred in
denying consideration of the evidence of Batson violations. Though the district court conceded that the allegations were “extremely serious,” the court denied
Petitioner’s motion to consider such claims on the
grounds that they were delayed. Pet. App. 25a. The
evidence of Batson violations was validly before the
courts below pursuant to § 2241, as Petitioner sought
to raise his Batson claim on the basis of newly discovered evidence of a grave constitutional violation,
which justifies access to a petition under § 2241
through the savings clause in § 2255(e).
Racial discrimination permeates government decisions made in this case. The government chose to
prosecute Mr. Hall in the Northern District of Texas,
Fort Worth Division, a decision that seated the case in
a jurisdiction with only a 10.41% Black population in
1990, rather than the 38.5% Black population in the
Pine Bluff Division of the Eastern District of Arkansas
at that time. Petition for Writ of Habeas Corpus at
23, No. 2:20-cv-00599, Hall v. Watson, (S.D. Ind. Nov.
12, 2020), ECF No. 1 (“Petition”). As a result, of the
100 prospective jurors questioned during voir dire,
only seven were Black. Id. After challenges for cause,
when only six Black prospective jurors remained, id.
at 23 n.6, the government struck four of the five qualified Black venire members in the group from which
the 12-member jury would be selected. The fifth Black
juror was struck by the defense due to her strong pro-

18
death penalty views, and the sixth was selected as the
third alternate. Id. at 23. As a result, Mr. Hall, who
is Black, was convicted and sentenced to death by an
all-White jury.
One of the two prosecutors who conducted voir dire,
Paul Macaluso, began his career in the Dallas County
District Attorney’s Office, which this Court found, “for
decades[,] . . . had followed a specific policy of systemically excluding blacks from juries.” Miller-El v.
Dretke, 545 U.S. 231 (2005) (“Miller-El II”). In proceedings brought under 28 U.S.C. § 2254, this Court
vacated Miller-El’s conviction and death sentence,
finding that Macaluso had struck Black jurors on the
basis of their race, in violation of Batson v. Kentucky,2
and then lied about why he had struck them. Id. Several years later, the Fifth Circuit Court of Appeals
found in a separate capital habeas case that Macaluso
had done the same. Reed v. Quarterman, 555 F.3d 364
(5th Cir. 2009). Both decisions mentioned Macaluso
by name numerous times.
Mr. Hall’s lawyers raised a Batson objection to the
prosecution’s strikes, and the district court asked the
government to explain them. Considering the government’s proffered reasons, in light of the voir dire transcript and jury questionnaires demonstrates that
Macaluso brought his bias with him when he came to
work at the United States Attorney’s Office prosecuting Mr. Hall. As in Miller-El II and Reed, the proffered race neutral reasons are not borne out by the
record, as they contain several misstatements, and,
importantly, a comparison of non-Black jurors the
2 476 U.S. 79 (1986).

19
government accepted and reasons the government
claimed was the basis for their strikes establishes that
the proffered reasons, though race neutral, were in
fact pretexts for race discrimination. These included
AUSA Richard Roper’s claim that the government had
attempted to remove all four Black jurors they struck
for cause when it only in fact challenged two of them.
With respect to the two jurors not previously challenged, a side-by-side comparison of the government’s
proffered bases for its strikes provides useful context:
Amy Evans. Amy Evans wrote in her jury questionnaire that she was in favor of the death penalty
“depend[ing] on the nature of the crime,” that it was
appropriate for “brutal senseless murders,” and that
it served “as a means of deterrent from committing the
crime.” Juror Questionnaire of Amy Evans at Q,46,
Q.48, Q.52a, No. 2:20-cv-00599, Hall v. Watson, (S.D.
Ind. Nov. 12, 2020), ECF No. 1-14 (“Evans Questionnaire”). She testified that the death penalty was “appropriate” in instances “where a crime was committed
intentionally without . . . any regard[] for life.” Vol.
10, Tr. of Trial at 92:8-11 (Voir Dire Examination of
Amy Evans), No. 2:20-cv-00599, Hall v. Watson, (S.D.
Ind. Nov. 12, 2020), ECF No. 1-13 (“Examination”).
The government nonetheless used a peremptory
strike on her, claiming Ms. Evans “was very, very hesitant on her views on the death penalty.” Vol. 12, Tr.
of Trial (Hearing on Peremptory Strike List) at 11:46, No. 2:20-cv-00599, Hall v. Watson, (S.D. Ind. Nov.
12, 2020), ECF No. 1-11 (“Batson Hr’g”). But the government seated other non-Black jurors who gave similar testimony. For example, White juror Mary Ann
Herring, like Ms. Evans, Ms. Herring provided both

20
“yes” and “no” answers in her questionnaire, Juror
Questionnaire of Mary Ann Herring at Q.52a, No.
2:20-cv-00599, Hall v. Watson, (S.D. Ind. Nov. 12,
2020), ECF No. 1-23, writing that the application of
the death penalty “would depend on the crime,” id.;
and she testified during voir dire that the death penalty should “depend on the circumstances” and “on the
crime,” Vol. 7, Tr. of Trial at 118:24, 119:2–3 (Voir
Dire Examination of Mary Ann Herring), No. 2:20-cv00599, Hall v. Watson, (S.D. Ind. Nov. 12, 2020), ECF
No. 1-20. There is no appreciable difference between
the views espoused by Ms. Evans and Ms. Herring, yet
one was struck while the other one sat on the jury.
The government also stated that Ms. Evans “had
very long pauses in her answers and was very hesitant
in what she said,” Batson Hr’g at 11:8-9, which the
record does not support. And the prosecutor claimed
that he was “concerned” that Ms. Evans had two
brothers-in-law in prison, even though he asked her
no questions about this topic, id. at 11:1-3, and seated
multiple non-Black jurors with family members either
currently in or released from prison. See Petition at
33.
Billie Lee. Potential juror Billie Lee stated in her
questionnaire that she favored the death penalty for
“extremely brutal” crimes and it should be available
for “child molesters who kill their victims.” Juror
Questionnaire of Bille Lee at Q.45, Q.48, No. 2:20-cv00599, Hall v. Watson, (S.D. Ind. Nov. 12, 2020), ECF
No. 1-29. She later testified that the death penalty
was warranted for “[a]nything that involves children,
murder of children, [and] cruelty to children.” Examination at 125:16-19. (Mr. Hall was tried for the

21
killing of a minor).
When asked if she could “give
honest and fair consideration” of the death penalty,
she responded that she could, “depending on evidence,
the cruelty of the act, all of that would have to be considered.” Id. at 127:19-21.
The government claimed it struck Ms. Lee because
she had stated in her juror questionnaire that she did
not believe in the death penalty but could assess it.
Yet again, a side-by-side comparison of jurors the government accepted for service belies this explanation;
indeed, the prosecution seated multiple White jurors
who expressed misgivings about capital punishment.
The government also proffered as a reason to exclude Ms. Lee that she was “on a prior jury trial for
robbery and found the defendant not guilty . . . .” Batson Hr’g at 13:18-29. Not only is this false, but the
government actually accepted a White juror who
served on a prior jury and acquitted a defendant on a
charge of murder. See Juror Questionnaire of Dana
Crittendon at Q.87, No. 2:20-cv-00599, Hall v. Watson,
(S.D. Ind. Nov. 12, 2020), ECF No. 1-32. Yet, this fact
went unexplored by the prosecution, whose only question about her prior jury service was to clarify that she
was already familiar with the voir dire and trial process. Vol. 1, Tr. of Trial at 91:9–14, 98:2–7 11 (Voir
Dire Examination of Dana Crittendon), No. 2:20-cv00599, Hall v. Watson, (S.D. Ind. Nov. 12, 2020), ECF
No. 1-33. Upon noticing the mistake as to Ms. Lee’s
jury service, the prosecutor changed his story, claiming that Ms. Lee was struck because she “had a
brother-in-law who was a criminal defense attorney,
which caused [ ] some concern.” Batson Hr’g at 14:59. But the prosecution asked Ms. Lee no questions

22
about this topic, which belies a claim that it actually
caused the government any concerns. See Miller-El II,
545 U.S. at 246 (“[F]ailure to engage in any meaningful voir dire examination on a subject the [government] alleges it is concerned about is evidence suggesting that the explanation is a sham and a pretext
for discrimination.” (internal quotation marks omitted)). And, once again, the government seated a
White juror whose brother-in-law was a public defender. Petition at 37.
While it is true that Mr. Hall’s trial counsel raised a
Batson challenge at trial, and that the trial record contains evidence supporting a Batson claim, this traditionally has not been enough, as courts have been reluctant to conclude that a prosecutor intentionally discriminated on the basis of race without something
more than a cold trial record. In Foster v. Chatman,
for example, this “something more” was a set of prosecution notes that came to light many years after Foster’s trial showing that the prosecution had flagged all
of the Black jurors on their strike sheets, written “No
Black Church,” and made a recommendation for who
to pick if they “had to pick a black juror,” 78 U.S. ___,
136 S. Ct. 1737 (2016). In this Court’s most recent
Batson decision, Flowers v. Mississippi, the “something more” was evidence that across its history of six
trials prosecuting Flowers, prosecutor Doug Evans
struck 41 of 42 prospective Black jurors. 588 U.S.
__139 S. Ct. 2228 (2019). And in Miller-El, the “something more” was new evidence that the prosecution office at issue had adopted a formal policy to exclude racial minorities from jury service and that the specific
prosecutors who tried Miller-El had been trained to

23
strike Black jurors via the infamous “Sparling Manual.” Miller-El v. Dretke, 545 U.S. 231, 264 (2005)
Here, the Court need not search for “something more”
because one of the very same prosecutors that the Supreme Court (and later the Fifth Circuit, in a different
case) concluded had violated Batson on the basis of the
office policy and Sparling Manual in Miller-El helped
pick the jury that convicted and sentenced Mr. Hall.
And just as in Miller-El, this evidence bears directly
on the Court’s inquiry into the genuineness of the
prosecution’s stated reasons for its strikes of 80% of
the qualified Black venire members at Mr. Hall’s trial.
Batson, 476 U.S. at 96-97 (“all relevant circumstances” must be considered in determining whether
a violation has occurred). As the Supreme Court
noted in Miller-El II, “[i]f anything more is needed for
an undeniable explanation of what was going on, history supplies it.” 545 U.S. at 266. That is doubly so
given that the “history” here is the very same piece of
history on which this Court relied in Miller-El to find
that Paul Macaluso violated the Equal Protection
Clause in that case. See also Reed v. Quarterman, 555
F.3d 364, 371 n.3 (5th Cir. 2009) (“One of the same
lawyers that conducted the voir dire in Miller–El’s
case, Paul Macaluso, also questioned prospective jurors for Reed’s trial”); id. (given “the historical evidence of racial bias among the[] prosecutors,” including Macaluso, “we view this exact same evidence as
persuasive here.”). And it dispatches any notion that
the jury selection process at Mr. Hall’s trial was race
neutral, as the Constitution requires.
The courts below erred by failing to consider Mr.
Hall’s Batson claims.

24
CONCLUSION
For the foregoing reasons, the Petition should be
granted.
Respectfully submitted,
KATHRYN M. ALI
KAITLYN A. GOLDEN
HOGAN LOVELLS US LLP
555 Thirteenth Street,
N.W.
Washington, D.C. 20004

PIETER VAN TOL
Counsel of Record
HOGAN LOVELLS US LLP
390 Madison Avenue
New York, NY 10017
(212) 918-3000
Pieter.vantol@hoganlovells.com

MARCIA A. WIDDER
104 MARIETTA STREET
NW, SUITE 260
ATLANTA, GA 30303
(404) 222-9202

NOVEMBER 19, 2020

ROBERT C. OWEN
LAW OFFICE OF ROBERT C.
OWEN, LLC
53 WEST JACKSON BLVD.,
SUITE 1056
CHICAGO, IL 60604

